No. 19-1336

IN THE

Supreme Court of the United States

d

THE NATIONAL RETIREMENT FUND ,

ET AL .,

—v.—

Petitioners,

METZ CULINARY MANAGEMENT, INC .,
Respondent.
ON PETITION FOR WRIT OF CERTIORARI TO THE UNITED STATES
COURT OF APPEALS FOR THE SECOND CIRCUIT

REPLY TO OPPOSITION

RONALD E. RICHMAN
Counsel of Record
MAX GARFIELD
ANDREW B. LOWY
SCHULTE ROTH & ZABEL LLP
919 Third Avenue
New York, New York 10022
(212) 756-2000
ronald.richman@srz.com
max.garfield@srz.com
andrew.lowy@srz.com
Counsel for Petitioners

i
TABLE OF CONTENTS
Page
TABLE OF AUTHORITIES ........................................ ii
REPLY BRIEF FOR THE PETITIONER ................... 1
A. THE AAA, IN THE ISSUE BRIEF,
HIGHLIGHTS THAT RETROACTIVE
CHANGES TO ACTUARIAL
ASSUMPTIONS ARE NECESSARY. ............ 2
B. THE AAA, IN THE ISSUE BRIEF,
CONFIRMS THAT THE ISSUE
PRESENTED HAS BROAD IMPACT,
DESPITE NO CIRCUIT SPLIT. .................... 5
C. THERE IS NO LEGISLATION IN
CONGRESS THAT WILL ADDRESS
THE ISSUE BEFORE THE COURT. ............ 7
D. THE “FACTUAL FEATURES” METZ
RELIES UPON TO ASSERT THAT THIS
CASE IS A “POOR VEHICLE” ACTUALLY
REINFORCE WHY THIS COURT SHOULD
GRANT THE PETITION. ............................... 7
E. THE SECOND CIRCUIT CREATED AN
INAPPROPRIATE LIMITATION THAT
DOES NOT EXIST IN ERISA. ..................... 10
CONCLUSION .......................................................... 11
Reply Appendix – American Academy of Actuaries, Issue
Brief, Selection of Actuarial Assumptions for
Multiemployer Plans (July 2020) ...................... 1a

ii
TABLE OF AUTHORITIES
Page(s)
Cases

Concrete Pipe & Prods. of Cal., Inc. v. Constr.
Laborers Pension Trust for S. Cal.,

508 U.S. 602 (1993) .......................................passim

Sofco Erectors Inc. v. Trs. of the Ohio
Operating Engineers Pension Fund, et al.,

Case No. 2:19-cv-2238, 2020 WL 2541970
(S.D. Oh. May 19, 2020) ....................................... 10

SUPERVALU, Inc. v. Bd. of Trs. of Sw. Pa. & W.
Md. Area Teamsters & Emp’rs Pension Fund,

500 F.3d 334 (3d Cir. 2007) .................................... 9

Statutes
29 U.S.C. § 1392(c),
Section 4212(c) of ERISA ....................................... 9
29 U.S.C. § 1393(a)(1),
Section 4213(a)(1) of ERISA .................................. 6
29 U.S.C. § 1401(c),
Section 4221(c) of ERISA ....................................... 8

iii
Other Authorities
Rehabilitation for Multiemployer Pensions
Act of 2019, H.R. 397, (116th Cong.)....................... 7

About Us, American Academy of Actuaries,

https://www.actuary.org/content/about-us ............ 1

Vision & Mission, American Academy of

Actuaries, https://www.actuary.
org/content/vision-mission ..................................... 1

1
REPLY BRIEF FOR THE PETITIONER
The National Retirement Fund and the Board
of Trustees of the National Retirement Fund
(collectively, the “Fund”) submit this reply brief in
response to Metz Culinary Management, Inc.’s
(“Metz”) opposition brief (the “Opposition”) to the
Fund’s Petition for Writ of Certiorari (the “Petition”).
Last month, after the Fund filed its Petition, the
American Academy of Actuaries (the “AAA”) published
an issue brief entitled “Selection of Actuarial
Assumptions for Multiemployer Plans” (the “Issue
Brief”). Reply App. 1a-11a. The AAA is a professional
association dedicated to serving the public and U.S.
actuarial profession. About Us, American Academy of
Actuaries, https://www.actuary.org/content/about-us
(last visited Aug. 20, 2020). The AAA has more than
19,500 members, which include consultants, corporate
executives and staff, regulators, government officials,
academics, and retired actuaries. Id. As part of its
mission, the AAA provides independent and objective
analysis and advice and advocates on behalf of the
actuarial profession, including by publishing
statements such as the Issue Brief. Vision & Mission,
American Academy of Actuaries, https://www.actuary.
org/content/vision-mission (last visited Aug. 20, 2020).
The Issue Brief sets forth what the profession
considers appropriate conduct for actuaries. This is
exactly the type of guidance that the Supreme Court
in Concrete Pipe & Prods. of Cal., Inc. v. Constr.
Laborers Pension Trust for S. Cal., 508 U.S. 602, 635
(1993) indicated should control actuarial issues
relating to the calculation of withdrawal liability. The
Issue Brief highlights the harm that the Second

2
Circuit’s decision creates for the actuarial profession
and multiemployer pension plans. It also showcases
how the four points Metz raises in its Opposition
ignore actual practice and an actuary’s duties under
the Employee Retirement Income Security Act of 1974,
as amended (“ERISA”). After a brief discussion of the
Issue Brief, the Fund addresses Metz’s arguments
below.
A. THE
AAA,
IN
THE
ISSUE
BRIEF,
HIGHLIGHTS THAT RETROACTIVE CHANGES
TO
ACTUARIAL
ASSUMPTIONS
ARE
NECESSARY.
The AAA states in the Issue Brief, “an actuary
typically makes the final selection of actuarial
assumptions after the measurement date . . . .” Reply
App. 7a. This is because “the actuary typically reviews
the reasonableness of the assumptions every year to
ensure they remain an appropriate estimate of
anticipated future plan experience.” Id. The AAA also
states that “the most recent relevant data that the
actuary uses to perform this analysis is generally not
available until after the measurement date.” Reply
App. 6a. Accordingly, an actuary’s “[a]nalysis of newly
available data and experience may be an appropriate
reason to make a decision after the measurement date
to change actuarial assumptions.” Reply App. 7a.
As this Court acknowledged in Concrete Pipe,
“[s]ince the methodology is a subject of technical
judgment within a recognized professional discipline,
it would make sense to judge the reasonableness of a
method by reference to what the actuarial profession
considers to be within the scope of professional
acceptability in making an unfunded liability

3
calculation.” 508 U.S. 602, 635 (1993). The Issue Brief
is what the actuarial profession considers appropriate.
According to leaders in the actuarial profession, when
an actuary relies on prior-year assumptions, the
actuary risks making assumptions based on stale
information. Reply App. 7a. By contrast, when an
actuary uses “the most recent relevant data,” the
actuary “ensures the results fully reflect current
experience and the actuary’s best estimate of the
situation of the measurement date.” Id. As discussed
at length in the Petition, an actuary’s ability to make
assumptions based on the actuary’s “best estimate” is
critical to a plan’s financial stability and is required
under ERISA. Pet. at 20-25.
The AAA explains in the Issue Brief that for
withdrawal liability, it is “especially important” for an
actuary to base his or her assumptions on the most
recent relevant data “because that calculation
effectively settles a withdrawing employer’s obligation
to the plan.” Reply App. 7a. A withdrawn employer is
no longer participating in the pension fund and is no
longer subject to its funding obligations. See App.
141a. While an ongoing contributing employer’s
contribution rate may change from time to time to
meet funding requirements, a withdrawn employer’s
withdrawal liability payments to a pension fund are
fixed at the time of withdrawal. See id. If a fund’s
investments underperform, and the fund does not
meet the actuary’s investment return assumption, a
withdrawn employer will not be obligated to contribute
more to a fund. See id. As a result, once an employer
withdraws from a fund, the employer is no longer
facing any risk connected with the performance of the
plan’s assets. See id. This is why it is particularly

4
important for an actuary’s assumptions for
withdrawal liability purposes to be based on the most
recent data.
In addition to discussing an actuary’s periodic
review of actuarial assumptions, the AAA addresses
the issues that arise when a pension plan decides to
engage a new actuary to replace its existing actuary.
Reply App. 8a-10a. In its Issue Brief, the AAA
confirms that a new actuary is expected to “review,
among other things: the plan’s situation; the prior
actuary’s work, including an evaluation of the
assumptions the prior actuary selected; and other facts
and circumstances affecting the plan.” Reply App. 9a.
After the new actuary completes this review and
assessment, the new actuary “might, in the exercise of
professional judgment and based on the available
data, plan experience, reasonable future expectations,
and other relevant factors, determine that changes to
plan’s [sic] actuarial assumptions are needed.” Id.
The AAA states, “[d]epending on when in the
Plan Year the change takes place and the time the new
actuary needs to complete a review and assessment,
any assumption changes that the new actuary
determines are appropriate may occur after a given
measurement date.” Reply App. 9a. This is exactly
what happened here. Pet. at 3-4; see Concrete Pipe,
508 U.S. at 635 (“consonance with professional
standards in making the [withdrawal liability]
calculation might justify confidence that its results are
sound”). The Fund retained a new actuary at Horizon
Actuarial Services LLC (“Horizon”), who undertook a
review of the Fund’s condition and the prior actuary’s

5
assumptions.1 Following a careful review, the Horizon
actuary, in his professional judgment and based on the
most recent data he reviewed, decided to change the
Fund’s actuarial assumption to better reflect the
actual experience of the Fund as of December 31, 2013.
Pet. at 4.
B. THE AAA, IN THE ISSUE BRIEF, CONFIRMS
THAT THE ISSUE PRESENTED HAS BROAD
IMPACT, DESPITE NO CIRCUIT SPLIT.
The AAA, in the Issue Brief, shows that Metz’s
assertion that the issue created by the Second Circuit’s
ruling is narrow is unmerited. Metz claims that the
absence of a circuit split furthers its misguided claim
that the issue in this case “has minimal prospective
importance.” Opp’n at 14. The fact that there is no
circuit split and that this case arose four decades after
enactment of the Multiemployer Pension Plan
Amendments Act of 1980 (“MPPAA”) is because of the
profession’s broad acceptance and use of the very
practice the Second Circuit seeks to stop. See Brief for
Amicus Curiae Horizon Actuarial Services, LLC at 4.
(the Second Circuit’s decision “seriously distorts
settled actuarial practices and places independent
actuaries in an impossible position”). The Second
Circuit’s decision upsets the apple cart that has been
in place for almost forty years and makes it impossible,
at times, for actuaries to comply with ERISA by using
their “best estimate” in accordance with accepted
Contrary to Metz’s unsupported, and unsupportable, comment
concerning Horizon—that the Fund retained Horizon “as a way
to hike withdrawal liability”—the Fund had no knowledge as to
the actuarial assumptions Horizon would select. See App. 98a,
105a-106a, 138a-142a.
1

6
actuarial practices. See Section 4213(a)(1) of ERISA,
29 U.S.C. § 1393(a)(1); Concrete Pipe, 508 U.S. at 631;
Reply App. 4a, 7a.
Metz’s contention that it is unclear whether
“any other plan or actuary has ever tried to alter
assumptions retroactively” and that there is no reason
“to think that other plans or actuaries will ever seek to
do so in the future” is belied by the AAA in the Issue
Brief. Opp’n at 15. The AAA plainly states that it is
commonplace for an actuary to select assumptions
after the Measurement Date (as defined in the
Petition). Reply App. 7a. Ironically, Metz touts the
lack of an amicus brief from the AAA as evidence that
an actuary’s ability to retroactively change actuarial
assumptions is a discrete issue and ignores the Issue
Brief, although it was published before Metz
submitted its Opposition. The Issue Brief puts a
spotlight on the pervasiveness of the practice and
confirms the Fund’s position in the Petition.
In an effort to belittle the harmful effect of the
Second Circuit’s erroneous holding, Metz notes that
actuaries can still change assumptions prospectively.
Opp’n at 13, 15. This argument is deeply troubling for
two reasons. Metz is actually arguing that, even if an
actuary believes that current assumptions may not be
correct, or are incorrect, the actuary should continue
to calculate withdrawal liability using the incorrect
assumptions until the following year. This violates
ERISA and the premise of this Court’s holding in
Concrete Pipe that actuaries will act in accordance
with accepted actuarial practices. 508 U.S. at 635.
Metz’s argument also glosses over the
importance of having an accurate withdrawal liability

7
calculation. As discussed above and in the Issue Brief,
withdrawal liability is effectively a plan’s last chance
to settle a withdrawing employer’s obligation to the
plan.
Relying on an actuary’s ability only to
prospectively change assumptions, even after
determining that such assumptions are, or may be,
flawed, ignores the fact that this is the only
opportunity for the plan to address a currently
withdrawing employer’s unfunded obligation to a plan.
See Reply App. 7a.
C. THERE IS NO LEGISLATION IN CONGRESS
THAT WILL ADDRESS THE ISSUE BEFORE
THE COURT.
The fact that Congress may address the
underfunding of the Pension Benefit Guaranty
Corporation’s insurance fund and multiemployer
plans by providing financial help does not suggest that
Congress will address ERISA’s rules governing the
selection of actuarial assumptions for the calculation
of withdrawal liability. In fact, the only legislation
passed by either house in Congress does not address
the issue before the Court. See Rehabilitation for
Multiemployer Pensions Act of 2019, H.R. 397, 116th
Cong. (2019).
D. THE “FACTUAL FEATURES” METZ RELIES
UPON TO ASSERT THAT THIS CASE IS A
“POOR VEHICLE” ACTUALLY REINFORCE
WHY THIS COURT SHOULD GRANT THE
PETITION.
Metz points to what it characterizes as two
“factual features” in claiming that this case is a “poor
vehicle” for this Court’s review. Opp’n at 3, 17.

8
Nothing about the Second Circuit’s decision turns on
or is determined by the facts of this case. The fact that
Metz withdrew before the Fund’s new actuary
formulated his interest rate assumption does not raise
a “due process” or “fairness” concern. This Court’s
central holding in Concrete Pipe was that the
statutory presumption in favor of pension funds’
determinations is constitutional, and does not violate
due process, because of the opportunity for
independent arbitral review and the role of
independent actuaries governed by professional
standards of conduct. 508 U.S. at 635-636.
In fact, the Second Circuit usurped the
arbitrator’s role and violated ERISA’s rules governing
dispute resolution of withdrawal liability disputes by
determining, without any factual or legal basis, that it
had to guard against Horizon using inappropriate
actuarial assumptions because Horizon selected those
assumptions after the Measurement Date. See Section
4221(c) of ERISA, 29 U.S.C. § 1401(c); Concrete Pipe,
508 U.S. at 630. It was, and is, for the Arbitrator to
determine whether the Fund’s actuary used
appropriate actuarial assumptions, not the Second
Circuit. In fact, the Arbitrator—the statutory finder
of fact—reserved Metz’s right in arbitration to
challenge the interest rate that the actuary used. See
App. 92a, 94a, 104a.
Metz’s argument that it was too late for the
employer to alter its behavior is not changed by the
Second Circuit’s decision. Opp’n at 17. The Fund has
no obligation to provide notice to employers of any
change made by the actuary in the actuarial
assumptions used to calculate withdrawal liability.

9
Accordingly, whether the Fund alters the assumptions
before or after the Measurement Date, or before or
after any employer withdraws, is irrelevant. Metz
would not be able to react to any change because Metz
would not know of the change until it received its
assessment of withdrawal liability.
Metz’s claim that it would have been able to
calibrate its withdrawal to when it would have been
more advantageous economically also ignores the fact
that participating employers in a multiemployer
pension fund are prohibited by law from doing exactly
that. Section 4212(c) of ERISA provides, “[i]f a
principal purpose of any transaction is to evade or
avoid liability under [Part 1 of MPPAA], this part shall
be applied (and liability shall be determined and
collected) without regard to such transaction.” 29
U.S.C. § 1392(c). SUPERVALU, Inc. v. Bd. of Trs. of

Sw. Pa. & W. Md. Area Teamsters & Emp’rs Pension
Fund, 500 F.3d 334, 343 (3d Cir. 2007) (finding that an

employer entering into a “Termination Agreement”
negotiated with the union to change the employer’s
year of withdrawal and reduce its withdrawal liability,
even though a bona fide transaction, was a transaction
with a principal purpose to avoid withdrawal liability
that violated Section 4212(c) of ERISA).

Metz focuses on the different interest rate
assumptions utilized by the Fund’s new actuary here
for withdrawal liability purposes and minimum
funding purposes, calling this a “distinct legal defect.”
Opp’n at 17. In doing so, Metz raises an issue not
before the Court.
It also mangles this Court’s
determination in Concrete Pipe that an actuary’s use
of different interest rates for the two different

10
purposes does not violate an employer’s due process
rights.2 Pet. at 19. Shortly before the Fund filed its
Petition, yet another district court reaffirmed decades
worth of decisions in which courts and arbitrators have
held consistently, as a matter of law—and contrary to
Metz’s assertion here—that neither the relevant
statutory provisions of ERISA nor this Court’s holding
in Concrete Pipe require the interest rates to be the
same. See Sofco Erectors Inc. v. Trs. of the Ohio
Operating Engineers Pension Fund, et al., Case No.
2:19-cv-2238, 2020 WL 2541970 at *9-10 (S.D. Oh.
May 19, 2020) (finding that “to the extent [the
employer] argues that ‘the use of different interest
rates in different contexts is always impermissible as
a matter of law, that argument fails’”) (quoting New

York Times Co. v. Newspaper & Mail Deliverers’Publishers’ Pension Fund, 303 F. Supp. 3d 236, 254-55
(S.D.N.Y. 2018)); see also Pet. at 18, 28.
E. THE SECOND CIRCUIT CREATED AN
INAPPROPRIATE LIMITATION THAT DOES
NOT EXIST IN ERISA.
Metz points to the Second Circuit’s
interpretation of the legislative intent behind Section
4214 of ERISA as justification for the Second Circuit’s
interpretation of Section 4213 of ERISA. Opp’n at 22.
The Second Circuit violated basic principles of
statutory interpretation by creating a limitation that

The Issue Brief reinforces the appropriateness of different rates.
The AAA wrote, “[t]wo key annual multiemployer liability
measurements are those used for statutory minimum funding
purposes and those used for employer withdrawal liability
purposes. Actuaries sometimes use different assumptions for
valuing these liabilities.” Reply App. 4a.
2

11
Congress chose, for good reason, not to include in the
provision of ERISA governing the selection of actuarial
assumptions for withdrawal liability. The Second
Circuit’s misguided concern that the possible misuse
of different interest rates by the actuary justifies its
statutory interpretation has no basis in ERISA,
violates ERISA’s rules governing actuaries, prohibits
actuaries from using their best estimates and acting in
accordance with appropriate actuarial practices, and
eviscerates the due process protection set forth in
ERISA’s arbitration scheme.
CONCLUSION
For the foregoing reasons and those stated in
the Petition for Writ of Certiorari, the Petition should
be granted.
Respectfully submitted.
RONALD E. RICHMAN

Counsel of Record

MAX GARFIELD
ANDREW B. LOWY
SCHULTE ROTH & ZABEL LLP
919 Third Avenue
New York, New York 10022
(212) 756-2000
ronald.richman@srz.com
max.garfield@srz.com
andrew.lowy@srz.com

Counsel for Petitioners

REPLY APPENDIX

1a
A MERICAN A CADEMY

OF

A CTUARIES

Issue Brief
Selection of Actuarial Assumptions
for Multiemployer Plans
July 2020
Key Points
• When determining funding standards and withdrawal liability, ERISA requires that actuaries
use reasonable assumptions that account for
plan experience and offer their “best estimate of
anticipated experience under the plan.”
• While the plan’s benefit obligations, funded
status, and withdrawal liability could be
measured on the prior year assumptions, using
the most recent relevant data ensures the
results fully reflect current experience and the
actuary’s best estimate of the situation as of the
measurement date.
• ASOP Nos. 27 and 35 acknowledge that several
different assumptions may be reasonable for a
given measurement, and that different actuaries
may select different reasonable assumptions.
Multiemployer pension actuaries use many
assumptions in measuring plan obligations,
funded status, and withdrawal liability. In selecting actuarial assumptions, an actuary would
typically review recent plan experience occurring
up to the measurement date, as well as consider
significant events that may occur after the
measurement date. For these and other reasons,

83735 • SCHULTE APPENDIX

AL 8/20/20

2a
actuaries often do not finalize the assumptions for
a given measurement until after the measurement
date. However, recent controversy has arisen
around the selection of actuarial assumptions that
can be used to determine employer withdrawal
liability under a multiemployer pension plan.
This issue brief considers post-measurement date
changes in actuarial assumptions and is meant to
contribute to the public policy analysis of
multiemployer pension plan issues by providing
insights into some of the considerations that go
into the selection of actuarial assumptions, and
the approaches that actuaries use in practice. It is
not intended to provide actuaries practicing in this
area with guidance on how to select actuarial
assumptions or with legal advice.1 Furthermore,
this issue brief focuses on issues affecting
multiemployer plans, and some of the concepts it
discusses may not apply to other types of defined
benefit pension plans.
This issue brief builds upon prior work of the
American Academy of Actuaries concerning the
selection of actuarial assumptions for pension
obligations, both for multiemployer plans and in
general. Please refer to these earlier issue briefs
for more information:
• Determining Withdrawal Liability for Multiemployer Pension Plans: A Range of Approaches
1

The discussion in this issue brief reflects practice as
of June 30, 2020. Certain practices described in this issue
brief could be significantly affected by changes in statutes or
federal regulations that take effect after June 30, 2020, or by
judicial decisions after June 30, 2020, construing applicable
statutes or regulations.

83735 • SCHULTE APPENDIX

AL 8/20/20

3a
to Actuarial Assumptions, April 2020. This issue
brief discusses considerations and approaches
used in the selection of interest rates for withdrawal liability.
• Assessing Pension Plan Health: More Than One
Right Number Tells the Whole Story, July 2017.
This issue brief discusses how more than one
measurement may be needed to determine the
financial health of a pension plan.
• Measuring Pension Obligations, November 2013.
This issue brief discusses how different discount
rates are useful for their intended purpose,
although the measurements may differ significantly.
Background
Multiemployer defined benefit pension plans
provide lifetime payments beginning at a participant’s retirement. These benefits accrue over a
participant’s working career and, in an attempt to
ensure the plan will accumulate sufficient
resources to pay the promised benefits, federal law
requires the prefunding of these benefits according
to specific rules.
The Employee Retirement Income Security Act of
1974 (“ERISA”) established minimum funding
standards for private pension plans in the United
States, including multiemployer pension plans.
Under these funding standards, an Enrolled
Actuary annually calculates and certifies the
benefit liabilities, funded status, and statutory
minimum required contribution of the plan.
The Multiemployer Pension Plan Amendments Act
of 1980 (“MPPAA”) amended ERISA to mandate

83735 • SCHULTE APPENDIX

AL 8/20/20

4a
the determination and assessment of withdrawal
liability for employers that cease their participation
in multiemployer plans. Withdrawal liability is the
employer’s share of the plan’s unfunded vested
benefit liability, if any.
When determining funding standards and withdrawal liability, ERISA requires that actuaries
use reasonable assumptions that account for plan
experience and offer their “best estimate of
anticipated experience under the plan.”2
Key Liability Measurements and Actuarial
Assumptions
Two key annual multiemployer liability measurements are those used for statutory minimum
funding purposes and those used for employer
withdrawal liability purposes. Actuaries sometimes use different assumptions for valuing these
liabilities.3 ERISA requires that the assumptions
for both measurements are reasonable and represent
the actuary’s best estimate of anticipated experience
under the plan.
There are two broad categories of actuarial
assumptions used to measure obligations for
multiemployer plans:

2

29 U.S.C. §§ 1084(c)(3), 1393(a)(1). While Congress
has authorized the Pension Benefit Guaranty Corporation to
promulgate regulations governing actuarial assumptions and
methods applicable to withdrawal liability, id. § 1393(a)(2),
it has not done so.
3

See the April 2020 issue brief Determining Withdrawal Liability for Multiemployer Pension Plans: A Range
of Approaches to Actuarial Assumptions.

83735 • SCHULTE APPENDIX

AL 8/20/20

5a
• Economic
Assumptions,
which
include
inflation, investment returns, discount rates,
compensation increases, cost-of-living adjustments, rate of payroll growth, growth of
individual account balances, conversion factors
for lump sums and variable benefits, and
administrative expenses; and
• Demographic Assumptions, which include
rates of retirement, termination of employment,
mortality (and mortality improvement), disability
(and disability recovery), election of optional
forms of benefits, and future service or benefit
credits (often expressed as hours worked).
Certain assumptions, such as those for participant
mortality and discount rates, typically have the
greatest effect on the valuation of current plan
obligations. Nonetheless, each assumption warrants
specific analysis, and the actuary must exercise professional judgment in selecting it. The assumptionselection process is guided by the Actuarial
Standards of Practice (“ASOPs”) established by the
Actuarial Standards Board (“ASB”).
Actuarial Standards of Practice (“ASOPS”)
The ASOPs set forth the procedures an actuary
should follow when performing actuarial services
and identify what the actuary should disclose
when communicating the results of those services.
They neither prescribe every step in an actuarial
assignment nor dictate a single approach or
outcome. Rather, the ASOPs require the actuary to
follow a process but to use professional judgment
when selecting assumptions; the process includes
analyzing plan experience and reaching a conclusion,

83735 • SCHULTE APPENDIX

AL 8/20/20

6a
while also recognizing that different actuaries can
reasonably reach different conclusions even when
faced with the same data and other inputs. The
following ASOPs guide actuaries in selecting
assumptions used in measuring pension obligations:
• ASOP No. 27, Selection of Economic Assumptions
for Measuring Pension Obligations
• ASOP No. 35, Selection of Demographic and
Other Noneconomic Assumptions for Measuring
Pension Obligations
While these ASOPs vary somewhat in specific
guidance, they both require that the actuary
consider the purpose and type of the measurement
and the materiality of the assumption to the
measurement. Likewise, both require the actuary
to evaluate the relevant economic/demographic
data and recognize that the selection of actuarial
assumptions is generally based on knowledge of
the situation as of the measurement date of the
pension obligation.
When evaluating the relevant data, the actuary
usually reviews relevant recent and long-term
historical data and considers the development of
trends over time without giving undue weight to
recent experience unless warranted by other
factors. Further, the actuary generally considers
the possibility that some historical data may no
longer be appropriate for use in developing
assumptions for future periods because of changes
in the underlying environment.
In practice, the most recent relevant data that the
actuary uses to perform this analysis is generally
not available until after the measurement date.

83735 • SCHULTE APPENDIX

AL 8/20/20

7a
Accordingly, an actuary typically makes the final
selection of actuarial assumptions after the
measurement date but before preparation of the
actuarial model used to perform the calculations,
finalization of the obligation being valued, and
issuance of an actuarial communication (referred
to as a Statement of Actuarial Opinion). While the
plan’s benefit obligations, funded status, and
withdrawal liability could be measured on the
prior year assumptions, the advantage of using the
most recent relevant data ensures the results fully
reflect current experience and the actuary’s best
estimate of the situation as of the measurement
date. This is especially important for withdrawal
liability because that calculation effectively settles
a withdrawing employer’s obligation to the plan.
The actuary typically reviews the reasonableness
of the assumptions every year to ensure they
remain an appropriate estimate of anticipated
future plan experience. Analysis of newly available
data and experience may be an appropriate reason
to make a decision after the measurement date to
change actuarial assumptions. Another reason to
update assumptions after the measurement date
includes events occurring after the measurement
date. These reasons are contemplated by the
ASOPs.
Events Occurring after the Measurement
Date
A multiemployer pension plan actuary may become
aware of significant real-world events that occur
after the measurement date but before the
actuarial communication is finalized. In such a
case, the actuary may decide that it is necessary to

83735 • SCHULTE APPENDIX

AL 8/20/20

8a
reflect these future events in the actuarial
assumptions as of the measurement date. The
applicable ASOPs permit actuaries to reflect
events occurring after the measurement date in
the actuarial assumptions as of the measurement
date, if appropriate, as described in the citations
below:
Section 3.5.5 of ASOP No. 27
“The economic assumptions selected should
reflect the actuary’s knowledge as of the measurement date. However, the actuary may learn of
an event occurring after the measurement date
that would have changed the actuary’s selection
of an economic assumption. (For example, a
collective bargaining agreement ratified after
the measurement date may lead the actuary to
change the compensation increase assumption
that otherwise would have been selected.) If
appropriate, the actuary may reflect this change
as of the measurement date.”
Section 3.10.5 of ASOP No. 35
“The demographic assumptions selected should
reflect the actuary’s knowledge as of the measurement date. However, the actuary may learn of
an event occurring after the measurement date
(for example, plan termination or death of the
principal owner), that would have changed the
actuary’s selection of a demographic assumption.
If appropriate, the actuary may reflect this
change as of the measurement date.”
Change in Actuary
The sponsor of a multiemployer pension plan may
decide to engage a new plan actuary to replace its

83735 • SCHULTE APPENDIX

AL 8/20/20

9a
existing one. In such circumstances, the new
actuary will review, among other things: the plan’s
situation; the prior actuary’s work, including an
evaluation of the assumptions the prior actuary
selected; and other facts and circumstances affecting the plan. Once that assessment is complete,
the new actuary might, in the exercise of professional judgment and based on the available data,
plan experience, reasonable future expectations,
and other relevant factors, determine that changes
to plan’s actuarial assumptions are needed.
Depending on when in the Plan Year the change
takes place and the time the new actuary needs to
complete a review and assessment, any assumption
changes that the new actuary determines are
appropriate may occur after a given measurement
date.
ASOP Nos. 27 and 35 acknowledge that several
different assumptions may be reasonable for a
given measurement, and that different actuaries
may select different reasonable assumptions (see
citations below). For example, there are various
approaches used by multiemployer plan actuaries
to evaluate an appropriate discount rate for
determining pension obligations for withdrawal
liability purposes. One actuary might review all
relevant information and use professional judgment to set assumptions for the measurement.
Another actuary independently reviewing the
same information may ultimately select different
assumptions based on professional judgment.
While both sets of assumptions would likely meet
each others’ “reasonable” standard, it is far less
likely that the two actuaries would select the same

83735 • SCHULTE APPENDIX

AL 8/20/20

10a
assumption for any particular purpose when
operating under a “best estimate” standard.
Section 3.6.2 of ASOP No. 27
“The actuary should recognize the uncertain
nature of the items for which assumptions are
selected and, as a result, may consider several
different assumptions reasonable for a given
measurement. The actuary should also
recognize that different actuaries will apply
different professional judgment and may
choose different reasonable assumptions. As a
result, a range of reasonable assumptions may
develop both for an individual actuary and
across actuarial practice.”
Almost identical guidance is found in Section 3.4 of
ASOP No. 35.
Conclusion
The assumption-setting process is a critical
component to measuring pension obligations and
there is a broad range of actuarial assumptions
that could be considered reasonable for a given
purpose. The selection of actuarial assumptions
relies heavily on professional judgment, technical
knowledge, and the information available to the
actuary. Updates to actuarial assumptions may
occur after the measurement date for a variety of
reasons. Guided by ERISA and the Actuarial
Standards of Practice, actuaries regularly review
previously selected assumptions and may make
updates to reflect new experience and changes in
outlook.

83735 • SCHULTE APPENDIX

AL 8/20/20

11a
AMERICAN ACADEMY

OF

ACTUARIES

1850 M Street NW, Suite 300
Washington, DC 20036
202-223-8196 | www.actuary.org
Craig Hanna, Director of Public Policy
Linda K. Stone, Senior Pension Fellow
© 2020 American Academy of Actuaries.
All rights reserved.
Members of the Multiemployer Plans Committee,
which authored this issue brief, include Christian
Benjaminson, MAAA, FSA, EA—Chairperson;
Joseph Hicks Jr., MAAA, FCA, MSPA EA—Vice
Chairperson; Mariah Becker, MAAA, ACA, EA;
Susan Boyle, MAAA, FSA, FCA, EA; Paul Bullock,
MAAA, ASA, FCA, EA; James Dexter, MAAA,
FSA, FCA, EA; Jim Donofrio, MAAA, FSA, EA;
Francis Gowen, MAAA, ASA, EA; Paul Graf,
MAAA, ASA, FCA, EA; Eli Greenblum, MAAA,
FSA, FCA, EA; Victor Harte, MAAA, EA; Mandy
Notaristefano, MAAA, FSA, FCA, EA; David
Pazamickas, MAAA, ASA, EA; Josh Shapiro,
MAAA, FSA, FCA, EA; and Peter Sturdivan,
MAAA, FSA, EA.
The American Academy of Actuaries is a 19,500member professional association whose mission is
to serve the public and the U.S. actuarial
profession. For more than 50 years, the Academy
has assisted public policymakers on all levels by
providing leadership, objective expertise, and
actuarial advice on risk and financial security
issues. The Academy also sets qualification,
practice, and professionalism standards for
actuaries in the United States.

83735 • SCHULTE APPENDIX

AL 8/20/20

